Department of Homeland Security
   Ofﬁce of Inspector General

            CBP’s Efficacy of Controls Over 

                    Drug Seizures 





OIG-11-57                                       March 2011
                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                              MAR 17 2011


                                          Preface

The Department of Homeland Security Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the efficacy of Customs and Border Protection’s controls for
receipting and recording, transporting, storing, and disposing of drug seizures. It is based
on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
 


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................3 


           Noncompliance With Policies and Procedures ........................................................3 


           Actions Taken by CBP ............................................................................................9 


Conclusion .........................................................................................................................10
 


Recommendations..............................................................................................................10
 


Management Comments and OIG Analysis ......................................................................11 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................13
 

     Appendix B:           Management Comments to the Draft Report .......................................14
 

     Appendix C:           CBP Drug Seizures ..............................................................................16
 

     Appendix D:           Major Contributors to this Report........................................................17
 

     Appendix E:           Report Distribution ..............................................................................18
 


Abbreviations
     CBP                   U.S. Customs and Border Protection 

     DHS                   Department of Homeland Security 

     FY                    fiscal year           

     FPFD                  Fines, Penalties & Forfeiture Division 

     GAO                   Government Accountability Office 

     GPO                   Government Printing Office 

     SEACATS               Seized Asset and Case Tracking System 

     SPS                   Seized Property Specialist 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                U.S. Customs and Border Protection is responsible for securing the
                homeland by preventing the illegal entry of people and goods. In
                1990, U.S. Customs and Border Protection’s (formerly U.S.
                Customs Service) Seized Property Program was designated as
                “high risk” by the Government Accountability Office, but was
                removed from this designation in 2003 as a result of substantially
                improved management and accountability of seized property,
                including drugs. Since 2003, the Government Accountability
                Office has not audited the internal controls for the seizure process.
                We conducted this audit to determine the efficacy of U.S. Customs
                and Border Protection’s controls for receipting and recording,
                transporting, storing, and disposing of seized drugs.

                Although U.S. Customs and Border Protection has policies and
                procedures in place, field personnel did not always receipt and
                record, transport, store, or dispose of seized drugs according to
                established policies and procedures, and in some cases,
                circumvented established guidance by using invalid waivers. We
                attributed these conditions to insufficient oversight,
                communication, and staffing throughout key stages of the seizure
                process. With the continuous influx of illegal drugs into the
                United States and a significant increase in drug seizures over the
                past 4 years, it is imperative that U.S. Customs and Border
                Protection comply with its established guidance to ensure that
                seized drugs are protected from loss, theft, or abuse, and to
                maintain evidentiary value in the event of legal proceedings.

                U.S. Customs and Border Protection has initiated corrective
                actions to address some of the identified deficiencies. Based on
                the results of our audit, we are making four recommendations
                intended to increase the effectiveness of U.S. Customs and Border
                Protection’s controls over seized drugs.




                   CBP’s Efficacy of Controls Over Drug Seizures 


                                      Page 1 

Background
 

                In 1990, the Government Accountability Office (GAO) designated
                the U.S. Customs and Border Protection’s (formerly the U.S.
                Customs Service) Seized Property Program as “high risk”
                following a review that revealed serious weaknesses in key internal
                controls and systems. These weaknesses affected the Customs
                Service’s ability to control, manage, and report the results of its
                seizure efforts, including accountability and stewardship over
                seized property, which includes seized drugs. In 2003, GAO
                removed the high-risk designation because U.S. Customs and
                Border Protection (CBP) had substantially improved management
                and accountability for seized property, including seized drugs.
                Since 2003, GAO has not tested the implementation of internal
                controls for the drug seizure process.

                In 2007, the Department of Homeland Security (DHS) published
                the National Southwest Border Counternarcotics Strategy, which
                focused primarily on what the U.S. government could do to
                prevent the illegal trafficking of drugs across the border with
                Mexico. Since then, CBP, in support of this strategy, has increased
                its investment in seizing personnel and technology in order to stop
                the flow of illegal drugs.

                Responsibilities for seizing drugs are shared by three separate CBP
                law enforcement arms: the Office of Field Operations, the Office
                of Border Patrol, and the Office of Air and Marine. The Office of
                Field Operations functions at the official ports of entry into the
                United States, the Office of Border Patrol operates between ports
                of entry, and the Office of Air and Marine supports the drug
                seizure process with its air and maritime assets.

                CBP personnel work at 327 ports of entry, 20 Border Patrol sectors
                (with 139 Border Patrol stations and 32 checkpoints), 46 air units,
                and 67 marine units. In fiscal year (FY) 2010, CBP made more
                than 66,000 drug seizures, approximately 50% more than in FY
                2007 (see table 1). CBP is not able to estimate the cost of its drug
                seizure efforts. CBP concurred with all four of the
                recommendations in the report and has already begun to formulate
                plans and initiate actions to address the recommendations.




                   CBP’s Efficacy of Controls Over Drug Seizures 


                                      Page 2
 

                         Table 1. Total Drug Seizures, FY 2007–FY 2010

                               CBP Law                           CBP Seizures
                              Enforcement
                                 Arms                2007        2008        2009      2010
                           Field Operations         34,097       38,918      48,681   46,808
                           Border Patrol             9,907       10,329      16,407   19,012
                           Air and Marine              211          172         233      561
                           Totals                   44,215       49,419      65,321   66,381
                         Source: CBP.

                         CBP personnel are required to follow the policies and procedures
                         in the Seized Asset Management and Enforcement Procedures
                         Handbook 1 when processing drug seizures. This handbook
                         contains preventive, detective, and corrective controls to assist
                         personnel in their responsibility of maintaining the integrity of
                         drug seizures and ensuring that drugs are safely kept from the
                         public and maintained as evidence. In extenuating circumstances,
                         CBP headquarters may grant field locations waivers that allow
                         them to temporarily bypass these policies and procedures.

Results of Audit
        CBP’s controls for receipting and recording, transporting, storing, and disposing
        of seized drugs were not always effective. CBP field personnel did not always
        receipt and record, transport, store, or dispose of seized drugs according to the
        policies and procedures in its Seized Asset Management and Enforcement
        Procedures Handbook. In some cases, field personnel circumvented established
        guidance by using invalid waivers. CBP field personnel did not always comply
        with policies and procedures because of insufficient oversight, communication,
        and staffing throughout key stages of the seizure process. With a significant
        increase in drug seizures over the past 4 years, it is imperative that CBP comply
        with its established guidance to ensure that seized drugs are protected from loss,
        theft, or abuse, and to maintain evidentiary value in the event of legal proceedings.

        Noncompliance With Policies and Procedures
                We reviewed 637 case files from 14 CBP locations between FYs 2007 and
                2009 2 to determine compliance with policies and procedures during key
                stages of the seizure process (receipt and recording, transport, storage, and
                disposal). CBP creates a case file for every drug seizure incident. The

1
  CBP is currently revising the Seized Asset Management and Enforcement Procedures Handbook to 

reassess the efficacy of current seized property policies and procedures. 

2
  See appendix C for locations and number of case files reviewed. 


                             CBP’s Efficacy of Controls Over Drug Seizures

                                                Page 3
                 case file includes the chain of custody 6051S form, the electronic Seized
                 Asset and Case Tracking System (SEACATS) record, the evidence
                 destruction form, and any other legal documentation that is required for
                 processing the drug evidence. Fifty-seven percent of the 637 case files
                 contained at least one indication of noncompliance with a policy or
                 procedure. Indications included inadequate receipting and recording,
                 improper transporting, incorrect storage, and improper disposal of seized
                 drugs; and instances of using invalid waivers to circumvent CBP controls.

                          Receipting and Recording of Seized Drugs

                          A key control in receipting and recording of seized drugs is accurate
                          documentation of seizure information. According to CBP policy,
                          field personnel must record information such as the date, custodians,
                          weight, and quantity of drugs on the chain of custody 6051S form
                          and the evidence destruction form. Field personnel are then to
                          transfer the information from the 6051S form to SEACATS within
                          24 hours from time of seizure, and a supervisor must ensure that the
                          information on the 6051S form matches the SEACATS information.
                          This policy ensures the integrity of the drug seizure and makes it
                          more difficult for fraudulent changes or human error to go
                          unnoticed. Further, other federal agencies, including the
                          Department of Justice’s U.S. Attorneys’ Offices, use these CBP
                          drug seizure forms and reports in prosecuting suspected criminals.

                          CBP did not conduct proper oversight of these control measures to
                          ensure that personnel were following polices and procedures. For
                          example, during a tour of CBP’s operations in an international
                          mailing facility, we observed a large number of backlogged khat 3
                          seizures located in an unsecured 4 location, with only partially
                          completed 6051S forms. The CBP official who escorted us
                          estimated that 400 backlogged khat seizures were awaiting
                          processing. We also observed port personnel recording khat
                          seizures using input dates rather than actual seizure dates. Port
                          personnel told us that khat seizures can go unprocessed for up to
                          10 days. Not entering actual information about a seizure can make
                          drug seizure cases more vulnerable to legal challenges. Khat is
                          classified as “high-risk, illegal” in the United States, and according
                          to a CBP official, can be used as a tool to obtain a search warrant
                          of suspected drug dealers. However, CBP personnel at this
                          location did not treat it as high risk and did not make its processing
                          a priority. Figure 1 shows unprocessed khat observed during a tour

3
  Catha edulis, commonly known as khat, is a flowering shrub native to East Africa and the Arabian 

Peninsula that is used as a recreational drug. 

4
  A location not meeting temporary or permanent physical security vault requirements. 


                              CBP’s Efficacy of Controls Over Drug Seizures

                                                  Page 4
of CBP’s operations in an international mailing facility. Figure 2
is an example of an incomplete 6051S form.

Figure 1. Unprocessed khat with partially completed 6051S forms




Source: DHS OIG.

Figure 2. Partially completed 6051S form




Source: DHS OIG.

At another location, we identified instances where port personnel
used a rubber signature stamp in lieu of original signatures when
completing the 6051S form. According to a CBP headquarters
memorandum, all letters, forms, and documents signed by the
Fines, Penalties & Forfeiture office must bear an original
signature. No signature stamps are to be used on these official
documents. If an unauthorized user misappropriated a signature
stamp, it could jeopardize the integrity of the seizure case and
potential prosecutions. Additionally, an official from the Federal
   CBP’s Efficacy of Controls Over Drug Seizures

                      Page 5
Bureau of Investigation said that any inconsistencies in the
receipting and recording of seized drugs can create chain of
custody issues, which defendants can use in an attempt to have the
evidence omitted.

Transporting Seized Drugs

CBP did not ensure that personnel transported seized drugs to
permanent storage or other federal agencies within required
timeframes. According to CBP’s policies and procedures,
personnel must transfer seized drugs from temporary storage to
permanent storage (where drugs are stored until destruction) or
other federal agencies within 3 calendar days from the time of
seizure. Permanent storage facilities must meet strict physical
security requirements to ensure that seized drugs are safely and
securely stored. Temporary storage facilities are only supposed to
act as interim storage for seized drugs and therefore do not meet
the rigorous requirements to safeguard the seized drugs. At one
location, we saw that CBP personnel were not transferring drugs
out of temporary storage for an additional week beyond the
required timeframes. The untimely transfer of drugs increases the
risk of loss and may compromise the chain of custody or the
evidentiary value.

Storing Seized Drugs

CBP did not ensure that personnel stored seized drugs according to
policies and procedures. CBP personnel did not consistently
document drug seizure shelf weights prior to storage. According to
CBP policies and procedures, upon storage, all drugs must be
assigned a shelf weight, which must be documented on the 6051S
form and in SEACATS. The shelf weights on the 6051S form
must be verified and updated during inventories and at the time of
destruction, as well as match the SEACATS record at all times.

Additionally, CBP did not always ensure that a full-time Seized
Property Specialist (SPS) was assigned and responsible for
managing and safeguarding drug seizures in permanent vaults.
CBP headquarters requires permanent vaults to have at least one
full-time SPS to oversee the vaults and ultimately be accountable
for drugs stored in the vaults. We identified three instances in
which drugs were stored for more than 3 calendar days in vaults
that were not managed and overseen by a full-time SPS. Instead,
the vaults were managed by rotating Seizing Officers, whose
primary duties were not vault management. Although CBP

   CBP’s Efficacy of Controls Over Drug Seizures

                      Page 6
headquarters officials communicated their objections, they did not
formally require ports to end this practice.

At one location, we identified defective tamperproof bags. Field
personnel throughout the United States use this type of bag to store
seized drugs. Properly sealed evidence bags ensure that drug
seizures are not tampered with and that the integrity of the
evidence is maintained. The bags we examined had defective glue
strip seals that had dried and cracked and were therefore
inadequate for the storage of seized drugs. See figures 3 and 4 for
images of the defective tamperproof bags.

Figure 3. Evidence bag with broken glue lines




Source: DHS OIG.
 


Figure 4. Partially open evidence bag 





Source: DHS OIG.




    CBP’s Efficacy of Controls Over Drug Seizures

                       Page 7
Field personnel said that they often need to rebag, reweigh, and
update the 6051S form and the SEACATS record because of the
defective bags.

Disposing of Seized Drugs

CBP did not ensure that personnel accurately completed
destruction forms and destroyed drugs within required timeframes.
According to CBP policy, Paralegal Specialists are required to
issue destruction forms after 60 calendar days of the seizure for all
bulk drugs above a certain weight threshold. Additionally,
according to CBP’s policy, seized drugs must be destroyed within
30 days after a destruction order is issued. CBP did not meet the
required timeframes owing to multiple vacant SPS and Paralegal
Specialist positions. According to CBP officials, the scarcity of
personnel hinders their ability to manage drug seizures properly
and timely. According to a CBP official, to manage case files
properly and timely, Paralegal Specialists should manage not more
than 250 cases at a time. At one location where destruction
timeframes were not being met, Paralegal Specialists were
managing an average of 385 case files each at any given time. The
substantial caseload at this location made it difficult to ensure that
all drug seizure cases complied with required timeframes.

28 CFR § 50.21(c) (Controlled Substance Destruction Procedures)
requires entities “to prevent the warehousing of large quantities of
seized contraband drugs which are unnecessary for due process in
criminal cases. Such stockpiling of contraband drugs presents
inordinate security and storage problems which create additional
economic burdens on limited law enforcement resources of the
United States.”

Invalid Waivers

CBP field personnel were using invalid waivers to circumvent
polices and procedures. In extenuating circumstances, such as
during a natural disaster or a shortage of staff needed to handle a
location’s increased drug seizures, CBP headquarters can grant
waivers that allow field personnel to temporarily bypass policies
and procedures. Waivers are supposed to be granted on a case-by­
case basis and must be (1) signed by authorized headquarters
officials and (2) defined and used during specified time periods.

We found three instances in which ports were operating under
invalid waivers unbeknownst to headquarters officials. At one

   CBP’s Efficacy of Controls Over Drug Seizures

                      Page 8
         location, backlogged khat seizures had reached a critical level and
         personnel requested permission from CBP headquarters to
         circumvent policies and procedures to expedite the destruction of
         the khat backlog. SPSs were allowed to pick up drugs at the mail
         facility for immediate transport to the destruction site, and
         personnel were allowed to bypass requirements for drugs to be
         verified against shelf weights prior to destruction. According to
         field personnel, no waiver was officially documented and signed
         by an authorized headquarters official; instead, verbal approval
         was granted in February 2009 to address the backlogged khat.
         Officials estimated that CBP would operate under the waiver for 1
         month and then resume adherence to policies and procedures once
         the backlog was eliminated. As a result of not having written
         approval, new employees who began to work at the location
         continued to bypass standard operating procedures from February
         2009 until March 2010, approximately 1 year beyond the waiver’s
         intended timeframe.

         At another location, two invalid waivers were used to circumvent
         CBP policies and procedures. The first involved CBP personnel
         using an invalid waiver from 1995, which was issued prior to the
         creation of DHS. This waiver allowed the location an additional
         30 days to issue a destruction order. CBP headquarters was not
         aware that the location was using this invalid waiver. The same
         location was using another waiver that had expired at least 3
         months prior to our site visit, which allowed the SPS to transport
         drugs from temporary to permanent storage. To ensure separation
         of duties, CBP policy requires the CBP personnel transporting
         drugs and those accepting the drugs into storage to be different
         people. CBP headquarters was not aware that the waiver
         bypassing this control had expired.

         CBP does not have a system to track waivers granted by CBP
         headquarters to field locations. Without proper oversight, CBP
         cannot be certain that field personnel are using waivers as intended.

Actions Taken by CBP
  CBP has taken action to address several of the deficiencies identified in
  this report. After CBP was informed of the improper use of waivers, field
  and headquarters personnel took immediate action to resolve the issue.
  CBP agreed with our recommendation that a system to track waivers is
  needed and has begun to develop a waiver tracking tool.



            CBP’s Efficacy of Controls Over Drug Seizures

                               Page 9
     Following our notification, CBP issued a memorandum to field offices
     prohibiting the use of rubber stamps in lieu of a signature. CBP reported
     that it received additional funding, which it will use to purchase two
     incinerators for two separate locations that seize a high volume of drugs.
     Officials said this should help CBP meet the required timeframe for
     destroying drugs. Additionally, CBP requested 50 new Paralegal
     Specialist positions and 31 new SPS positions in the President’s FY 2011
     budget request, and stated that it will be staffing the vacant SPS positions
     identified in this report and intends to conduct a staffing allocation
     assessment in FY 2011. Appropriate staffing will help CBP meet its
     timeframe requirements for destroying seized drugs.

     Upon being notified of the defective evidence bags, CBP headquarters
     officials responsible for field locations immediately issued a memo
     requesting a review of all drug evidence bags in the field. Eight locations
     reported more than 11,000 evidence bags that did not properly seal. CBP is
     working to address this issue. Additionally, CBP is updating the Seized
     Asset Management and Enforcement Procedures Handbook to ensure that
     all field personnel understand the requirements for processing drug seizures.

Conclusion
     There has been a significant increase in drug seizures by CBP over the
     past 4 years. As DHS continues to implement the National Southwest
     Border Counternarcotics Strategy and initiatives, it is imperative that CBP
     comply with its established guidance and address areas of noncompliance
     to ensure that seized drugs are protected from loss, theft, or abuse and to
     maintain evidentiary value in the event of legal proceedings.

Recommendations
     We recommend that U.S. Customs and Border Protection:

             Recommendation #1: Strengthen communication and oversight
             to ensure that field personnel comply with established policies and
             procedures regarding receipting, recording, transporting, storing,
             and disposing of seized drugs.

             Recommendation #2: Conduct a staffing allocation assessment to
             staff key positions to ensure that staffing is properly aligned with
             seizure caseloads, and that all field locations are properly staffed
             with the appropriate SPS and legal case personnel to carry out their
             duties and responsibilities.



                CBP’s Efficacy of Controls Over Drug Seizures

                                  Page 10
            Recommendation #3: Develop a plan to replace defective
            evidence bags in the field. This plan should include—
                �	 Identifying ports with defective evidence bags,
                �	 Securing a contractor that can provide nondefective
                   evidence bags, and
                �	 Replacing defective evidence bags as soon as possible.

            Recommendation #4: Implement a waiver tracking and
            management system.


Management Comments and OIG Analysis
     CBP concurred with all four of the recommendations in the report and has
     already begun to formulate plans and initiate actions to address the
     recommendations.

     Management Response to Recommendation #1:

     CBP concurred: CBP agreed with the need to strengthen communication
     and oversight to ensure that field personnel comply with established
     policies and procedures regarding receipting, recording, transporting,
     storing, and disposing of seized drugs. The Fines, Penalties and Forfeiture
     Division (FPFD) plans to augment its oversight program by conducting
     Fines, Penalties and Forfeiture office site short notice surveys and by
     creating a specific oversight branch that will monitor personnel
     compliance with policies and procedures for processing drug seizures.
     FPFD plans to have these changes implemented by June 30, 2011.

     OIG Analysis: Management’s response indicated how FPFD plans to
     address this recommendation; however, the other CBP offices and
     divisions, including Office of Border Patrol, responsible for receipting,
     recording, transporting, storing, and disposing of seized drugs have not
     indicated how they plan to address this recommendation. This
     recommendation is unresolved and will remain open until documentation
     is received from all CBP offices and divisions responsible for handling
     drug seizures. The documentation they submit must indicate how they
     implemented the recommendation and how the implementation will
     strengthen communication and oversight and ensure that personnel are
     complying with policies and procedures for processing drugs seizures.

     Management Response to Recommendation #2:

     CBP concurred: CBP agreed with the need to conduct a staffing allocation
     assessment to staff key positions to ensure that staffing is properly aligned

                CBP’s Efficacy of Controls Over Drug Seizures 


                                   Page 11

with seizure caseloads, and that all field locations are properly staffed with
the appropriate SPS and legal case personnel to carry out their duties and
responsibilities. On January 3, 2011, FPFD obtained a cost estimate for
updating its Resource Optimization and Resource Allocation models.
FPFD plans to implement this recommendation by March 1, 2011.

OIG Analysis: Management’s response indicated how FPFD plans to
address this recommendation; however, the other CBP offices and
divisions (including Office of Border Patrol) responsible for receipting,
recording, transporting, storing, and disposing of seized drugs have not
indicated how they plan to address this recommendation. This
recommendation is unresolved and will remain open until documentation
is received indicating the staffing allocation assessment was conducted for
all CBP offices and divisions responsible for handling drug seizures and
those CBP offices and divisions have analyzed the results to determine
whether their staffing is adequate based on seizure caseloads and position
responsibilities.

Management Response to Recommendation #3:

CBP concurred: CBP agreed with the need to develop a plan to replace
defective evidence bags in the field. CBP stated that the plan includes
forwarding bags identified as defective to the Government Printing Office
(GPO) for examination and GPO contacting the evidence bag vendor for
necessary action, increasing the amount of adhesive used on each bag,
including proper sealing instructions on every bag, distributing a training
video to the appropriate personnel showing step-by-step instructions for
properly sealing the bags, and developing a system of internal controls for
monitoring the quality of evidence bags. CBP plans to implement this
recommendation by June 1, 2011.

OIG Analysis: This recommendation is resolved but will remain open until
documentation is received verifying that the recommendation was
implemented and CBP has replaced all defective evidence bags in the field.

Management Response to Recommendation #4:

CBP concurred: FPFD agreed and has developed and implemented a
waiver tracking and management system. It is looking at enhancing the
Waiver Tracking System capabilities through SharePoint by June 1, 2011.

OIG Analysis: This recommendation is resolved but will remain open
until documentation is received verifying that all CBP offices responsible
for seizing and processing drug seizures are using the new waiver tracking
and management system.

           CBP’s Efficacy of Controls Over Drug Seizures


                              Page 12

Appendix A
Purpose, Scope, and Methodology

                   This report provides the results of our work to determine the
                   efficacy of U.S. Customs and Border Protection’s controls over
                   seized drugs, including controls for receipting and recording,
                   transporting, storing, and disposing of seized drugs. We reviewed
                   637 case files from 14 CBP locations with the highest amount of
                   drug seizures between FY 2007 and FY 2009. As part of our
                   location selection, only drug seizures with drug weights considered
                   beyond personal use, as codified by 19 CFR 171.51(b)(6)
                   (Personal use quantities), were counted toward the total drug
                   seizure population. CBP headquarters provided the total drug
                   seizure numbers for FYs 2007–2009 and the number of defective
                   evidence bags, neither of which were verified during this audit.

                   We assessed compliance with CBP’s policies and procedures in the
                   key stages of the seizure process: receipting and recording,
                   transporting, storing, and disposing of drug seizures. For each
                   seizure stage, we tested key internal controls based on the Seized
                   Asset Management and Enforcement Procedures Handbook. Site
                   visits consisted of CBP personnel interviews and direct
                   observations of CBP handling of seized drugs throughout each of
                   the key stages of the seizure process.

                   We conducted our audit between December 2009 and August 2010
                   under the authority of the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   on our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions.




                      CBP’s Efficacy of Controls Over Drug Seizures 


                                         Page 13 

Appendix B
Management Comments to the Draft Report




                                                                          ·
                                                                          e
                                                                          ,
                                                                          ~
                                                                              ..
                                                                                   1300 ~nn5\'I'...nla A'"""ue NW
                                                                                   \\'ashmglon. DC 20129


                                                                                   u.s. Customs and
                                                                                   Border Protection

                                                                                   January 26. 2011



     MEMORANDUM FOR RICIIARD L. SKINNER
                    INSPECTOR GENERAL
                    DEPARTMEr-;T OF HOMELAND SECURITY

     FROM:                    Assistant Commissionef       '7t.t 7,   /
                              Office of Internal Affairto-...
                                                          ,        D
     SUBJl:CI                 U.S. Customs and Border Protection·s Response to the Office of Inspector
                              General·s Draft Report Entitled. ·'CRp·s Efficacy of Controls Over Drug
                              Seizures'·

     Thunk you for providing us with a copy of your draft report entilled '·CBp·s Efficacy of Controls Over
     Drug Seizures:' dated December 28, 2010. We appreciate the opportunity 10 review and respond to
     Ihe report. The report identifies measures U.S. Customs and l30rder Protection (CBP) can take to
     improve its process to safcguard seized drugs.

     The report includes four recommendations. The recommendations and CIJI'·s actions to address the
     recommendations are described below,

     Recommendation 1#1: Strengthen communication and oversight to ensure that litld personnel
     comply wilh estahlished policies and procedures regarding receipting. recording. transporting. slOring.
     and disposing of scized drugs.

     CHI'   Re~pome:   CHI' C("lllCUrS with Ihe recommendation

     For over (I year. the Fines, Penallies and Forfeiture Division·s (FPFD) goal has been to de,elop a more
     robUSl o\crsight program thai \\ould enhance communication and focus on field compliance with
     cstahlishcd policies and procedures. FI'FD has been in the process of fonnally proposing lhe creation
     of a specific oversiglll branch for this purpose. In an effort to maintain oversight and communication
     \\ ith the field the FPFD will continue: (I) conducting Fines, Penallles & Forfeiture (FP&F) officer
     qU(lrterly conference calls to communicate policy and significant issues regarding the program to the
     Held: (2) posling informational notices. policy and other program relevant material in SharePoint: (J)
     (Isscssing FP&F ollices monthl)' by reviewing SEACATS case and property data; (4) conducting
     un(lnnounccd pennanent lault reviews and oversight: and (5) expanding the oversight program by
     conducting FP&F office site short notice surveys. Du~ Dale: June 30. 20 II

     R~commcndation1#2: Conduct a staffi ng allocation asscssmcntto staff key positions to ensure that
     stamng is properly aligned v.ith seizure caseloads. and thaI all field locations are proper!) staffed"" ilh
     the appropriate 51'S and legal Case personnel to call) out their dUlies and responsihilities.

     CHI' Rc.~ponsc: CBP concurs with the recommendation.




                               CBP’s Efficacy of Controls Over Drug Seizures 


                                                      Page 14
 

                                                      2

On January 3, 2011, FPFD obtained a cost estimate for updating the Re ource Optimization Model and
Resourc    llocation Model for FP&F taff. FPFD will be looking for funding. Due Date: March I,
2011

Recommendation #3: Develop a plan to replace defective evidence bag in the field. This plan should
include:

     -   Identifying ports with defective evidence bags,
          ecuring a contractor that can provide nondefective evidence bag. and
     -   Replacing defective evidence bags a oon a po sible.

CBP Re pon e: CBP concurs with the r commendation.

CBP will develop a plan to identify defective bags and remove them from inventory. Bags identified
as defective will be forwarded to the Government Printing Office (GPO) for examination. GPO will
contact the evidence bag vendor for nece sary action.

  BP will increa e the amount of adhe ive used on each bag a well as including proper aling
in tructions on every bag: CBP will di tribute a training video to the appropriate personnel howing
 tep-by- tep in tru tion for properly ealing the bags; and, cap will develop a sy tern of internal
control for monitoring the quality of evidence bags. This will include developing a proces for
random sampling a well as an analy i regarding helflife. Due Date: June J. 201 1

Recommendation #4: Implement a waiver tracking and management y t m.

CBP Response:      BP concurs with the recommendation.

A Waiver Tracking y tern ha been d veloped and implemented by the FP D (for u e by Office of
Field Operation ). FPFD i looking at enhancing the Waiver Tracking ystem capabilities through
 harePoint. Due Date: June 1. 2011

Technical comments to this report will be provided to the 010 electronically. With regard to the
classification of the draft report, cap has n t identified any information within this report that
warrants a "For Official U Only" clas ilication.

A always, CBP appreciate the opportunity to highlight our continuing effort to improve our
performance, and to provide additional information to the 010 regarding our future efforts that not
only address the OIG recommendation. but will also impro our overall operational effectiveness.

If you have any questi n regarding this re ponse, please contact me or have a member of your taff
contact Robin Whit , Deputy Director, Management In pection Divi ion. Audit Management and
Liai on, at (202) 344-1061.




                    CBP’s Efficacy of Controls Over Drug Seizures 


                                         Page 15
 

Appendix C
FY 2007–FY 2010 CBP Drug Seizures



                      CBP SITE LOCATIONS
            NUMBER OF DRUG SEIZURES AND CASES FILES



                                          Number of Drug               Cases Reviewed
     CBP Location                            Seizures
                                           FY 2007–FY 2009

     Location 1                                  27,287                     175
     Location 2                                   4,136                      30
     Location 3                                      4,028                  30
     Location 4                                      3,684                  48
     Location 5                                      3,672                  30
     Location 6                                      3,410                  30
     Location 7                                      2,064                  48
     Location 8                                      1,870                  49
     Location 9                                      1,870                  30
     Location 10                                     1,775                  30
     Location 11                                     1,742                  30
     Location 12                                     1,616                  47
     Location 13                                     1,534                  30
     Location 14                                     1,382                  30
     Total Seizures and Cases                    60,070                     637




                     CBP’s Efficacy of Controls Over Drug Seizures 


                                        Page 16
 

Appendix D
Major Contributors to this Report


                    Jewel Butler, Director
                    Shelley Howes, Audit Manager
                    Maryann Pereira, Audit Manager
                    Matt Noll, Program Analyst
                    Edward Jeye, Auditor
                    Michael Brunelle, Program Analyst
                    Thomas Bobrowski, Program Analyst
                    Nachama Rosen, Program Analyst
                    Martha Barksdale, Auditor
                    Danielle de Sanctis, Program Analyst
                    Lovella Viray, Program Analyst
                    David DeHaven, Independent Referencer




                       CBP’s Efficacy of Controls Over Drug Seizures 


                                          Page 17 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Customs and Border Protection

                      Assistant Commissioner, Office of Field Operations
                      Chief, Office of Border Patrol
                      Deputy Director, CBP Audit Management and Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                         CBP’s Efficacy of Controls Over Drug Seizures 


                                            Page 18
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
